Case no.

IN THE SUPREME COURT OF THE UNITED
STATES
Barbara Silva
Petitioner
v.
United States of America
Respondent

Petition for Writ of Certiorari

Pursuant to Rule 33.1(h).

I certify that the accompanying

petition was prepared using Century Schoolbook 12-Point
typeface,

Contains 3964 words.

Word count function of

Microsoft Word used to prepare the document and count.

I declare under penalty of perjury that the foregoing is true
and correct.

Dated: August 25 2021

Barbara Silva (pro se)
28

